January 25, 2020
Pennsylvania Office of Attorney General
Criminal Law Division
Appeals & Legal Services Section
16th Floor, Strawberry Square
Harrisburg PA 17120
(Phone) (717) 787-1401
Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543
RE:

Donald Mitchell Tedford v. Pennsylvania
Case No. 20-5795 (Capital Case)

Dear Mr. Harris:
By this letter and pursuant to Rule 30.4, Respondent, the Commonwealth of
Pennsylvania, is respectfully requesting an unopposed final extension of 14 days’ time in
which to file its brief in opposition to the petition for writ of certiorari in this capital
case, from January 25, 2021 to February 8, 2021.
On September 16, 2020, Petitioner Donald Tedford filed his petition for writ of
certiorari with the Court. The petition was docketed on September 24, 2020. Pursuant to
Rule 15.3, the Respondent’s brief in opposition was originally due to be filed on or
before October 26, 2020. Respondent sought two unopposed 45-day extensions of this
deadline due to Covid-19-related reasons, and this Honorable Court graciously granted
those requests and established a new filing deadline for the Respondent of January 25,
2021.
Undersigned counsel expected to complete and file the brief in opposition by
January 25, 2021. However, on January 15, 2021, the Pennsylvania Office of Attorney
General (“POAG”) informed its employees that pursuant to an Order of the Governor of
Pennsylvania, the Capitol Area Complex in Harrisburg, Pennsylvania – including the
POAG’s headquarters office where undersigned counsel works and maintains his case
files – would be shut down and inaccessible from January 16, 2021 to January 22, 2021
due to safety concerns arising out of the incident at the United States Capitol on January
6, 2021 and threats of violence in state capitals made in connection with the Presidential
Inauguration. Due to this unanticipated and unforeseeable development, undersigned
counsel was unable to access and utilize files necessary for the completion of the brief in
opposition during that time period. Consequently, undersigned counsel needs an
additional 14 days beyond January 25, 2021 to file its brief in opposition.

Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543

Page -2-

In light of these circumstances, Respondent respectfully requests the Court to find
good cause to extend the filing deadline for its brief in opposition to the petition for writ
of certiorari a third and final time by 14 days until February 8, 2021. Undersigned
counsel has communicated with counsel for the Petitioner, Adam Cogan, Esquire and
Attorney Cogan has graciously indicated that he and his client do not oppose this request
for a third and final extension of time.
Thank you for your attention to this request.
Sincerely,
/s/WILLIAM R. STOYCOS
William R. Stoycos
Senior Deputy Attorney General

C:

Adam B. Cogan, Esquire

